<html>
<title> - NOMINATION OF DENNIS R. SCHRADER</title>
<body><pre>[Senate Hearing 110-274]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 110-274
 
                    NOMINATION OF DENNIS R. SCHRADER 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

    NOMINATION OF DENNIS R. SCHRADER TO BE DEPUTY ADMINISTRATOR FOR 
   NATIONAL PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                    DEPARTMENT OF HOMELAND SECURITY

                               __________

                             JULY 25, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

37-364 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
































        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS


               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                  Kristine V. Lam, Research Assistant
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
              Jennifer L. Tarr. Minority Associate Counsel
                  Trina Driessnack Tyrer, Chief Clerk





















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     5
    Senator Pryor................................................    13

                               WITNESSES
                        Wednesday, July 25, 2007

Hon. Benjamin L. Cardin, a U.S. Senator from the State of 
  Maryland.......................................................     1
Dennis R. Schrader, to be Deputy Administrator for National 
  Preparedness, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security................................     6

                     Alphabetical List of Witnesses

Cardin, Hon. Benjamin L.:
    Testimony....................................................     1
    Prepared statement...........................................     3
Schrader, Dennis R.:
    Testimony....................................................     6
    Prepared statement...........................................    17
    Biographical and professional information....................    21
    Responses to pre-hearing questions...........................    32
    Letter from U.S. Office of Government Ethics.................    80
    Responses to post-hearing questions..........................    81


                    NOMINATION OF DENNIS R. SCHRADER

                              ----------                              


                        WEDNESDAY, JULY 25, 2007

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Pryor, and Collins.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. Thanks very much for being here.
    Senator Cardin, if I may be blunt, do you have the time to 
sit through the opening statements by Senator Collins and me? 
Or would you like to make an introduction and then go on?
    Senator Cardin. Senator Lieberman, you are always so 
direct. I appreciate that.
    [Laughter.]
    I am supposed to preside at 10:30 a.m. I don't know how 
long your opening comments are----
    Chairman Lieberman. Go right ahead.
    Senator Cardin. I always enjoy hearing from you.
    Chairman Lieberman. If you want to do the introduction, go 
ahead.

 TESTIMONY OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Well, thank you, Senator Lieberman and 
Senator Collins. I thank you very much for allowing me this 
opportunity to appear before the Committee on Homeland Security 
and Governmental Affairs.
    It is a great honor to introduce to the Committee Dennis R. 
Schrader for the consideration of his nomination to be Deputy 
Administrator for National Preparedness of the Federal 
Emergency Management Agency within the U.S. Department of 
Homeland Security. Quite a mouthful, but an extremely important 
position.
    It is really my pleasure to introduce to you Dennis 
Schrader. He is a person who was our first Secretary of 
Homeland Security in Maryland, appointed by Governor Ehrlich, 
and he had the confidence of our entire congressional 
delegation. He reached out to all of us and worked in a way 
that was in the best interests of the people of Maryland. He 
put their interests first as the Secretary of Homeland 
Security.
    We have regular briefings, and at these briefings, they 
gave us the chance to truly understand what was happening in 
Maryland and to coordinate our work in Maryland with what was 
happening nationally. And it was never partisan. It was always 
including all of us, and I congratulate him on his 
extraordinary leadership in setting up that agency in Maryland. 
I think it was one of the most efficient agencies in the 
country due to his extraordinary leadership.
    I also want to introduce his wife, Sandy. Sandy and I have 
been colleagues. Sandy is a former State Senator, a great 
leader in her own right for the people of Howard County. So we 
get two for the price of one here, and they are a great duo.
    Chairman Lieberman. We have heard that line before.
    [Laughter.]
    Senator Cardin. I thank the entire family because serving 
in public life is not easy and taking on this challenge will 
not be easy, and it is a real family commitment, and we thank 
the entire family for being willing to make this commitment to 
public service.
    Let me just very briefly tell you a little bit about 
Dennis. He brings with him an extraordinary background of 
local, State, and Federal experience, and private sector 
experience. He is the former councilman in Howard County, so he 
understands local government, and I think that is an extremely 
important part of his responsibility in this new position, is 
to work closely with local officials so that we all work 
together on the same page on behalf of the people of our 
community.
    He also brings a distinguished record in the U.S. Navy. He 
served in the U.S. Navy for 27 years. Served three active-duty 
tours, five tours in the U.S. Navy Reserve in assignments that 
included the Pentagon, Navy Bureau of Personnel, and the 
Defense Threat Reduction Agency. Captain Schrader earned four 
Navy commendation medals and three Navy achievement medals 
before retiring earlier this year, and we thank him for his 
service to our country.
    I got to know Dennis best when he was--I call him our 
``workout specialist'' for the University of Maryland. When I 
was Speaker of the State Legislature, Dennis was called upon to 
help us deal with the University of Maryland. At that time, it 
was a public hospital in terrible financial condition. Dennis 
used his extraordinary executive leadership to work out the 
problems of that hospital so that today the University of 
Maryland Medical Center is one of the great academic medical 
centers in our country. I must tell you, it just did not 
happen. It took an extraordinary game plan and talent, and he 
was part of the team that brought that about, and I thank him 
for that leadership, which I think will also help him as he 
deals with the challenges in FEMA and in Homeland Security and 
making it work in the best interests of the people of our 
country.
    Mr. Chairman, I am proud to support the nomination of 
Dennis Schrader to be the Deputy Administrator for National 
Preparedness. I thank the Committee for giving me this 
opportunity to introduce to you a Marylander that we are very 
proud of and believe will continue to serve the people of our 
Nation.
    Chairman Lieberman. Thank you, Senator Cardin, for a very 
thoughtful and obviously sincere statement of support. And you 
are now free to do whatever you would like at this point, but I 
thank you.
    Senator Cardin. Thank you. With your permission, I will ask 
to be excused.
    Chairman Lieberman. Understood.
    Senator Cardin. Thank you very much.
    [Prepared statement of Senator Cardin follows:]
                  PREPARED STATEMENT OF SENATOR CARDIN
    Chairman Lieberman, Ranking Member Collins, Members of the 
Committee. Thank you very much for this opportunity to appear before 
the Committee on Homeland Security and Governmental Affairs.
    It is my great honor and privilege to be here today to introduce 
Dennis R. Schrader for the consideration of his nomination to be Deputy 
Administrator for National Preparedness of the Federal Emergency 
Management Agency within the U.S. Department of Homeland Security.
    Mr. Schrader has had a long and distinguished career serving the 
people of Maryland and Nation in the private sector, the military and 
at the local, state, and Federal levels of government. I have had the 
opportunity to work closely with Dennis over the years and it is my 
pleasure to welcome him to Capital Hill today.
    I would also like to extend a warm welcome to Dennis' wife, Sandy. 
Sandy Schrader is another accomplished public servant, having 
represented the citizens of Howard County from 2002 to 2007 in the 
Maryland State Senate. Sandy, we are all glad you could be here today 
with Dennis
    Dennis Scharder served in the U.S. Navy for 27 years. Dennis served 
three active-duty tours and five tours in the U.S. Navy Reserve in 
assignments that included the Pentagon, Navy Bureau of Personnel, and 
the Defense Threat Reduction Agency. Captain Schrader earned four Navy 
Commendation Medals and three Navy Achievement Medals before retiring 
earlier this year. We thank him for his honorable service.
    Mr. Chairman, one of Dennis' greatest contributions to the State of 
Maryland, and to the medical community, was his leadership at the 
University of Maryland Medical System. In the mid-1980's, the 
University of Maryland Hospital was an aging facility with millions of 
dollars in annual losses.
    As Speaker of the Maryland House of Delegates, I worked with my 
colleagues in the State to find a way to turn the troubled institution 
around. Dennis was a key member of the team that was assembled to 
transform the struggling public entity into a modern and financially 
successful private, non-profit organization.
    Today, the University of Maryland Medical System is a nationally 
recognized center of excellence, with six hospitals, 10,000 employees, 
and a revenue base of over $1 billion. Dennis has a proven record of 
implementing organizational and programmatic innovation to turn around 
a foundering public agency.
    Most recently, Dennis has served as the first Director of Homeland 
Security for the State of Maryland. As Director, Dennis applied his 
experience from the military, the private sector, and his elected 
service on the Howard County Council to create a modern, efficient 
agency capable of identifying and responding to the threat of foreign 
and domestic terrorism and natural disasters.
    Dennis built on existing State functions and local initiatives and 
leveraged new resources and strategies to create a continuous, cost 
effective, and sustainable ``Culture of Preparedness'' in Maryland. In 
particular, as Director of the Governor's Office of Homeland Security, 
Dennis always made a concerted effort to reach out to the Maryland 
Congressional delegation as valued partners in bolstering the safety of 
our citizens. His efforts to reach out across levels of government--and 
across party lines--are a testament to his success in emergency 
management.
    Mr. Chairman, I am proud to support the nomination of Dennis 
Schrader to be Deputy Administrator for National Preparedness. I thank 
the Committee for the opportunity to appear on behalf of such a 
dedicated public servant. Thank you very much.

    Chairman Lieberman. Thank you very much.
    I appreciate very much the introduction by Senator Cardin, 
and I now formally welcome you, Mr. Schrader, to this hearing. 
The Deputy Administrator for National Preparedness is a new 
position within FEMA, created by DHS, Department of Homeland 
Security, to implement part of the Post-Katrina Emergency 
Management Reform Act, which I am proud to say was authored by 
Senator Collins and me, and basically all the Members of this 
Committee. That legislation was the result of this Committee's 
8-month investigation into why the response to Hurricane 
Katrina was so horribly botched at all levels of government and 
what needed to be done so that kind of deadly debacle will 
never be repeated.
    In the aftermath of Hurricane Katrina, some called--and 
still do--for FEMA to be taken out of the Department of 
Homeland Security. I believed--and continue to believe--that 
would be a serious mistake because it would weaken FEMA, not 
strengthen the agency. Our legislation strengthened FEMA by 
making it a distinct entity within DHS, similar to the Coast 
Guard and Secret Service, but it also, I think, strengthened it 
by putting it together in the same Department with the various 
other agencies that are clearly part of the preparedness and 
response responsibility of our government and within DHS so 
that the whole really would be, and I think is becoming, 
greater than the sum of the parts. The Post-Katrina Reform Act 
was designed to ensure that FEMA became the hub of the Federal 
Government's efforts to prepare for and respond to disasters of 
all kinds, and it could best become that hub in DHS where the 
rest of those agencies are.
    One of the most important parts of our efforts to remake 
FEMA into a world-class disaster response agency was to reunite 
preparedness and response capabilities within FEMA. We don't 
want to be in the position again where we are trying to build 
the kind of teamwork and logistical relief operations among all 
levels of government in the midst of the chaos that inevitably 
follows a disaster, as clearly happened in the days and even 
hours after Hurricane Katrina struck.
    As part of implementing this requirement of the Act, the 
Department of Homeland Security created the National 
Preparedness Directorate to organize and oversee key parts of 
our national preparedness efforts, and the Secretary placed 
that directorate under the control of a newly created Deputy 
Administrator for National Preparedness, which, of course, is 
the position for which you, Mr. Schrader, have been nominated.
    Along with making sure that preparedness is fully 
integrated into the new FEMA, another major responsibility of 
yours will be to oversee the disaster exercises and training 
programs that we clearly need to fix and make better. We saw 
that in the lead-up to Hurricane Katrina with Hurricane Pam, 
not being related and acted upon in a way to make the response 
to Hurricane Katrina better.
    In our Hurricane Katrina investigation, we also found that 
some of FEMA's senior leadership lacked sufficient emergency 
management and homeland security experience needed to 
effectively do their jobs. So we made it a requirement of the 
Post-Katrina Management Act that people who are put in high 
positions have the required experience, the relevant 
experience. And I note with real satisfaction, as Senator 
Cardin's introduction made clear, that you, Mr. Schrader, have 
very relevant qualifications and experience that will clearly 
be an asset to you if you are confirmed.
    Mr. Schrader, the responsibilities of the position for 
which you have been nominated are critical to our homeland 
security, and your ability to carry them out will make sure 
that we will never again have to ask the question that we asked 
in our Post-Katrina hearings, which is: ``Why weren't we 
prepared?''
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman, and welcome, Mr. 
Schrader.
    The FEMA Reform Act written by this Committee--and signed 
into law last year--reunited the preparedness and response 
functions of a strengthened FEMA within the Department of 
Homeland Security. As the Chairman has indicated, the Deputy 
Administrator for National Preparedness is a new position 
created by that reform Act, and it will play a critical role in 
meeting the challenges that are set forth in the reform bill.
    The need for this reunification, for this strengthening, 
and for this position was made clear by our investigation into 
the flawed preparation for and response to Hurricane Katrina. 
And, thus, the responsibilities of the position for which Mr. 
Schrader has been nominated are extensive. They include policy 
development, contingency planning, exercise coordination and 
evaluation, emergency management training and hazard 
mitigation, to name but a few. Beyond the specifics of a job 
description, the Deputy Administrator for National Preparedness 
must be a builder--a builder of a new FEMA as an integral part 
of DHS, a builder of a new culture of all-hazard preparedness 
across all levels of government, and, above all, a builder of a 
restored faith within the American people in government's 
ability to meet its fundamental obligation of protecting our 
citizens.
    Mr. Schrader brings significant experience and expertise to 
this great challenge. As has been mentioned, as Director of 
Maryland's Office of Homeland Security, he worked to develop a 
regional vision for homeland security--that has been an issue 
that the Chairman and I have long pushed of having a more 
regional approach and, thus, stronger regional offices, for 
example. He also was responsible for implementing accountable 
and measurable program oversight for all homeland security 
dollars coming to his State. And he helped establish the 
Maryland Coordination and Analysis Center. His service on the 
U.S. Attorney's Office Anti-Terrorism Advisory Council and as 
the Chairman of the Public Safety Communications 
Interoperability Governance Work Group bears directly upon two 
issues that have long been at the top of this Committee's 
agenda.
    No aspect of our Post-Katrina legislation has stirred more 
debate and more disagreement than our intention, our commitment 
to keep a strengthened FEMA within the Department of Homeland 
Security. In the end, our proposal prevailed because it is 
clear that the challenges of the 21st Century require a single 
agency to plan, coordinate, and integrate homeland security and 
disaster operations. DHS is that agency and FEMA is its core.
    But passing legislation is only one hurdle. The real 
challenge comes in its implementation, in creating a vigorous, 
coordinated, and accountable national emergency management 
network. I commend Mr. Schrader for his willingness to accept 
that challenge. I look forward to our discussion today.
    Finally, Mr. Chairman, let me note that I have a staff 
member, my deputy chief of staff, Mary Beth Carozza, who worked 
very closely with Mr. Schrader in his position in Maryland. She 
personally vouches for him, and I look forward to questioning 
him today.
    Chairman Lieberman. Thanks, Senator Collins. That is high 
praise.
    Senator Pryor, if you would like to make an opening 
statement, you are welcome.
    Senator Pryor. Thank you, Mr. Chairman, but I do not have 
one. Thank you.
    Chairman Lieberman. Thank you.
    I will now do the formal introduction. Dennis Schrader has 
filed responses to a biographical and financial questionnaire, 
answered pre-hearing questions submitted by the Committee, and 
had his financial statements reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made part of the hearing record, with the exception of the 
financial data, which, according to Committee custom, are on 
file and available for public inspection in the Committee 
offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, so, Mr. 
Schrader, I would ask you to please stand and raise your right 
hand. Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Schrader. I do.
    Chairman Lieberman. Thank you, and please be seated.
    Mr. Schrader, I now welcome your opening statement and 
invite you to introduce at your pleasure the significant number 
of family members you have with you.

TESTIMONY OF DENNIS R. SCHRADER,\1\ TO BE DEPUTY ADMINISTRATOR 
FOR NATIONAL PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Schrader. Yes, Mr. Chairman. Let me start by 
introducing family members: My wife, Sandra, who Senator Cardin 
referred to; my daughter, Whitney; my brother, Rick, who I grew 
up with in Buffalo; my aunt Marguerite Collesano, who came from 
Buffalo; and my cousin, her daughter, Jennifer Adams. I thank 
them for being here today. Thank you. As well as many other 
friends.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schrader appears in the Appendix 
on page 17.
---------------------------------------------------------------------------
    Chairman Lieberman. Thank you. We welcome you. I did not 
realize you are from Buffalo. That inherently means you are 
from strong stock.
    Mr. Schrader. Yes, sir.
    [Laughter.]
    Went through a lot of snowstorms.
    Good morning, Mr. Chairman, Senator Collins, and Members of 
the Committee. My name is Dennis Schrader. I would like to 
start by thanking Senator Cardin for his kind introduction. It 
was a privilege working with him as then-Congressman Cardin 
during my tenure as the State Homeland Security Advisor. I am 
here today as the nominee for Deputy Administrator for National 
Preparedness at the Federal Emergency Management Agency, a 
critical role that this Committee envisioned as part of the 
Post-Katrina Emergency Reform Act of 2006.
    I am very honored by the President's nomination and glad to 
be here today to address your questions as you consider my 
nomination. It is a great privilege to be considered for this 
position and to perhaps have a role in furthering our Nation's 
readiness at this important moment in our history.
    In preparing for this hearing, I had an opportunity to not 
only reflect on the past 30 years of my career, but also to 
consider how much I relied on my family's support and patience 
during those years. My wife, Sandy, and my daughter, Whitney, 
who I have just introduced, are here with me today, and I would 
like to thank them for their support. The life of a public 
servant, as you know, can mean long hours and much time away 
from the home. And Sandy and Whitney have endured that with 
both grace and understanding.
    In addition, I also owe much to my parents, whose character 
and selflessness set such a sterling example for me during 
those years I was growing up in Buffalo, New York. Whether it 
was my father working two jobs at a time or my mother working 
part-time in addition to her household responsibilities, they 
instilled in me a sense of civic responsibility that I carry 
with me today.
    If confirmed as the Deputy Administrator for the National 
Preparedness Directorate, I would address the concerns of many 
State and local officials, private sector companies, and 
individual citizens who play key roles in our national 
preparedness. I would advocate an approach that expects the 
unexpected. The task at hand requires superior planning, 
excellence in training and exercises, and an ongoing assessment 
process that measures improvement.
    I have had the benefit of being coached and mentored by a 
variety of outstanding individuals throughout my career. Just a 
couple of examples: Rear Admiral Fred Kelly inspired me to work 
toward my professional engineer's license, and Captain James 
Kovalcik showed me how to think outside the box to solve tough 
government contracting problems. The breadth of their knowledge 
and depth of their character have been an inspiration to me 
throughout my career, and I am grateful to them.
    During my 7 years on active duty in the Navy, I saw 
firsthand the importance of large-scale contingency planning, 
both on a national and international basis. In 1980, I found 
myself on the isolated island of Diego Garcia in the Indian 
Ocean with the ``Can Do'' Seabees. There I learned the value of 
readiness when you are so far removed from basic medical 
services we take for granted.
    In 1981, I learned about and prepared for the risk of 
tsunamis and typhoons on the Pacific Island of Guam.
    From 1982 to 1984, I contributed to the forward-based 
construction in Sicily and was sobered by the terrorist attack 
on our Marine barracks in Lebanon just a few hundred miles 
away.
    Finally, during my time at Bethesda Naval Hospital in 1985, 
I routinely exercised with the Presidential Treatment Unit, 
only to suddenly have to press it into service on a Friday 
evening in July that year for President Reagan.
    After returning to the private sector in 1987, I spent 16 
years working with health professionals who came to work every 
day with the mission of saving people's lives. When lives are 
on the line, you work as a team where everyone expects you to 
be preparing and improving your skills and systems on a daily 
basis. Health care is a logistics and equipment-intensive 
business which often encounters the unexpected. For example, in 
the early 1990s, a major neighborhood substation exploded, and 
we operated the medical center on emergency power for 3 days 
while the transformer was replaced. In 1999, we spent $35 
million preparing for Y2K and enjoyed the evening of December 
31 in the command center while the uneventful New Year passed.
    On two occasions, we came close to evacuating patients, but 
in each case our organizational preparation saved the day.
    In 2002, we used the Emergency Management Institute 
training courses to design a full-scale field exercise that 
tested our incident command system for a WMD event. It was a 
major wake-up call for our team. That training we received from 
EMI highlighted the importance of the common citizen's role in 
the culture of preparedness. Many of our citizens volunteer 
every day. I personally served 19 years in the Naval Reserve, 
and our citizens want to contribute, and we must welcome their 
participation. We have got to make it easy for them. If 
confirmed, I hope to build upon the good work being done at 
both the Citizen Corps and Ready programs.
    In our national preparedness efforts at the Federal level, 
we have to engage our State and local partners who provide the 
core public safety and public health capability across this 
country. In 1997, I recall as a county council member voting 
for over $30 million in bonds to replace our county radio 
system and observed how expensive these systems can be for 
local government. We owe a great deal to the Nation's thousands 
of local elected officials and their teams, and I look forward 
to working closely with them in the future.
    Since September 11, 2001, the Nation has been mobilized to 
meet the challenge at hand. In the past 4 years as a State 
official, I managed the State's response to numerous local 
events, including Hurricane Isabel, an I-95 tanker fire, a 
threat to our harbor tunnels in Baltimore, as well as 
coordinating the State's assistance during the response to 
Hurricane Katrina. The public demands and deserves our best 
efforts. We continuously challenged ourselves to be better as 
we reached out to our neighboring States and local 
jurisdictions. I cannot emphasize enough the importance of 
collaboration to foster a regional approach.
    In closing, the Congress has set the preparedness bar very 
high for FEMA, DHS, and the Nation. I would welcome the 
opportunity to meet that challenge and respectfully ask this 
Committee to confirm my nomination to lead the Preparedness 
Directorate at FEMA.
    I thank you, Mr. Chairman, for the opportunity to appear 
before you, and I would be happy to answer any questions you 
may have.
    Chairman Lieberman. Thanks very much, Mr. Schrader. That 
was a very strong and encouraging statement.
    I must tell you, I would imagine Senator Collins feels the 
same thing I do. There is a lot of frustration in Congress 
these days for all of us, but when you are involved in this 
Committee, as this Committee was, in the investigation Post-
Katrina, when you are able to work with your colleagues to 
adopt legislation and to try to drive a reorganization of FEMA 
and DHS that makes them more effective in protecting the 
American people, when the Department creates a position such as 
yours and then fills it with somebody so eminently qualified, 
it is very satisfying to see it happen. Now, you have got to do 
the work, but I think you are an excellent choice.
    One of the key aspects of the Post-Katrina Act was 
obviously to put preparedness back in FEMA, reuniting it with 
response. If you are confirmed, you will have very important 
responsibilities for fully integrating preparedness into FEMA, 
and I want to ask you to talk for a moment about some of the 
measures you would plan to take to ensure that preparedness is 
fully and successfully integrated back into FEMA.
    Mr. Schrader. Well, by starting, sir, I think the first 
step is making sure that we have the very best possible career 
leadership at the agency, and I think the first responsibility 
that I would have, if confirmed, is to make sure the key 
leadership roles in FEMA are filled with quality people. But we 
also need to make sure, while we are doing that, we have 
diversity. We need to have a mix of different folks 
particularly that know how to reach out to different areas. As 
you said, DHS offers a tremendous resource to the agency, and 
the integration of that will require folks who can work in a 
matrix leadership style reaching out to other folks.
    For example, within DHS they have set up--and I experienced 
this as a State official, working with the information analysis 
people. Mr. Allen's group is very good. We worked with them. So 
we need to be able to reach in and collaborate with folks, as 
well as across, interagency, because FEMA will be required to 
lead the effort to pull together, folks from the Health 
Department, HHS, and the Department of Justice. So it really is 
a frame of mind in terms of how you approach leading.
    Chairman Lieberman. I thank you for that answer.
    One of the additions that the new legislation makes is to 
require the development of a comprehensive assessment program 
for how the grants that we all support and are trying to 
increase from the Federal Government to State, locals, and 
first responders are actually being used.
    As part of this position, Deputy Administrator for National 
Preparedness, you will have a responsibility for implementing a 
comprehensive assessment program so that taxpayers and Members 
of Congress know how the money we are sending is being spent.
    Given the inherent difficulties, which I know you are aware 
of, having had the experience you have, in defining whether a 
given State or locality is well prepared for a disaster or a 
catastrophe like Hurricane Katrina, how will you go about 
trying to measure this as the law requires?
    Mr. Schrader. Yes, sir, Mr. Chairman. Let me start by 
saying that the first thing that Governor Ehrlich told me when 
we got started was that he wanted me to stay on top of all the 
money coming into the State, and it took a while to pull all 
that data together, but over 5 fiscal years, we realized that 
we had over $438 million coming into the State. We set up 
project management functions to oversee all that, and what I 
learned and I realized at the Federal level is there are two 
things that are critical. One, we need to have the regional 
offices at FEMA, which have the relationships with the States, 
be more engaged in that process. And now through the wisdom of 
this Committee, that has been made possible, that would be 
something that would need to be done.
    Second, we need to support the States in what I call 
program management. We have to begin to have an expectation, 
and that has started. The last two grant cycles required that 
the States create program management functions. But I think we 
need to engage in that process and make sure that there are 
projects that are being implemented.
    At the State level, we did that. We had regular briefings 
with all of the agencies involved in putting projects together, 
and we tracked those projects, and we made sure that the money 
was being invested effectively. And I think that is the kind of 
thing we have to do nationally, but we have to do it through 
the regional offices. We cannot manage it out of Washington.
    Chairman Lieberman. I appreciate that, and I particularly 
appreciate the emphasis of the regional offices. But what would 
you see the regional offices doing to assess the preparedness 
of State and local agencies?
    Mr. Schrader. Two things, and I use the term ``crawl, walk, 
run.''
    Chairman Lieberman. Right.
    Mr. Schrader. Because in building the relationship with the 
State, we do not want to play ``gotcha'' with the States. We 
want to begin the assessment process so that we get accustomed 
to working with each other. I think we need to stay focused on 
the eight national priorities. Over the last several grant 
cycles, we have made it very clear that there are eight 
priorities, things like implementing the National Incident 
Management System, the National Response Plan, like the 
Interoperability Program, just to name a few.
    We should focus on those eight priorities and begin to make 
sure that there are assessment measures. For example, we have 
already been assessing interoperability at the State level. We 
ought to take those measures and use them and then begin to 
orient the States to the fact that we are going to be assessing 
performance. So crawl, walk, run would be, I think, the most 
appropriate because we have to build that trust relationship.
    Chairman Lieberman. Good answer. Sensible answer. I have 
got a little more time, but I am going to use it to ask you 
some of the standard questions that we ask all nominees.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Schrader. No, sir.
    Chairman Lieberman. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Schrader. No, sir.
    Chairman Lieberman. Finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted Committee of Congress if 
you are confirmed?
    Mr. Schrader. Yes, sir.
    Chairman Lieberman. Thank you very much. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Schrader, I want to pick up on the discussion on 
interoperability. This afternoon, the Chairman and I will be 
offering an amendment to the homeland security appropriations 
bill to designate some funding for interoperability programs in 
the States and the regions. This is something that both of us 
have been working on for a very long time. It was disheartening 
in the aftermath of Hurricane Katrina to hear the same kinds of 
interoperability problems that hampered the response on 
September 11, 2001. They were still there in Hurricane Katrina.
    You have served on Maryland's Interoperability Council. 
Give us your thoughts, please, on where we should be going with 
interoperability, your assessment of the efforts of States, and 
how can we encourage a more regional approach? Maryland is 
probably more sensitive to that than most States because you 
have to work with Virginia and Washington, DC.
    Mr. Schrader. Right.
    Senator Collins. But give us your thoughts on that 
challenge.
    Mr. Schrader. Yes, Senator. Let me start by saying that the 
first thing that we did in Maryland is to establish a 
governance process under Governor Ehrlich's leadership that 
brought together all the counties and local jurisdictions and 
the State enterprise, and we met every month for many months, 
and we developed a master plan for the State. That is the first 
thing. And this was predicated on a study, a seminal document 
that was produced about 4 years ago called ``Why Can't We 
Talk?'' And it was a national consensus document that had five 
issues, and they said if a State is going to do 
interoperability, they need to pay attention to governance, 
there needs to be coordinated planning, you need to have focus 
on budgets and projects, and you are going to in some cases 
have to invest and replace some equipment.
    So at the State level, it is within the States' purview to 
organize this governance process and have a master plan. I 
think those are absolutely critical.
    I will give you one example about the regional part of it 
because one of the things I am very proud of, in the 
Midatlantic States, we had organized a 501(c)(3) organization 
called the ``All Hazards Consortium,'' and in the last grant 
cycle, in 2006, we got West Virginia, Pennsylvania, Maryland, 
and Virginia together, and we put in a proposal for a quad-
State interoperability project.
    When we did that, we signaled the staff at DHS that we were 
going to do it. When it came to the review process, they did 
not have the mechanisms to be able to deal with it. However, to 
their credit, we had a closed-door meeting with them subsequent 
to that and said, you guys need to fix this, and to their 
credit they did. And my understanding is that this year in the 
grant guidance, it was put in there, and there were over 150 
regional projects submitted by the States.
    We are really proud of the fact that Maryland initiated 
that because the people in western Maryland said to us, look, 
it is great that you are working in Baltimore and Washington, 
DC, but it is more important to us what the county in West 
Virginia to the south of us and the county in Pennsylvania to 
the north of us think because there is only 10 miles separating 
us. We need more of that kind of thinking, and we need to 
encourage it.
    Senator Collins. Thank you.
    I want to ask you about the status of the revisions to the 
National Response Plan. As you are well aware, this is the 
document which all emergency managers--State, local, and 
Federal--take their cues from on how to respond to a disaster. 
Many of the witnesses who testified before us during our 
investigation said that the emergency response to Hurricane 
Katrina was so poor in part because the original National 
Response Plan had only been issued just shortly before 
Hurricane Katrina struck and, thus, first responders and 
emergency managers had little time to absorb its changes, to be 
really familiar with the document.
    Now, DHS is in the process of a second round of changes to 
the National Response Plan to incorporate the lessons of 
Hurricane Katrina. But the problem is DHS was supposed to have 
completed that task and issued the revised plan in June. We are 
now well into hurricane season.
    What assurances will you give us that you will make 
completing this plan, the revisions, a priority?
    Mr. Schrader. Well, one is that I have not been privy to 
the internal details of what has been going on in the 
Department as far as the development of the revisions. But I 
will say, coming from a State perspective, when I received the 
original document, it was 400 pages long, and you can imagine 
sitting in a State Governor's office with a handful of people 
getting a 400-page document. My initial thoughts were, it was 
too long, it was too Federal centric, and it did not lay out 
roles and responsibilities that could be easily understood from 
a State because all incidents start at the State and local 
level.
    So my sense was that the National Response Plan should 
really be more organized around what happens on the front end 
at the State and local level and then expands from there.
    I have made these comments to leadership at DHS and FEMA, 
and I have been assured that is the approach that is being 
taken in this revision.
    Having said that, if I am confirmed, this would be at the 
very top of the list, getting this plan out there, because, 
quite frankly, in its original form it really was not a plan, 
per se.
    The second thing I would also mention is that what we 
really need to do is we need to modernize the planning system 
nationally. We need to build on that guidance that comes out of 
the Federal Government and work through the regions with our 
State and local governments to better put together real 
operational plans, very similar to what has been done in the 
last 40 or 50 years within the Department of Defense. There is 
a well-worn path along those lines.
    So it is not just reissuing the plan. It is really moving 
to the next step and making it even better. And I think the 
National Plan Review was an excellent initiative, and I felt, 
as a State advisor when that came through, that was really a 
very positive step forward toward engaged partnership. But we 
need to do a lot more.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    Senator Pryor, I am delighted you are here. I would say to 
Mr. Schrader, and maybe others, Senator Pryor is the Chairman 
of our Subcommittee on State, Local, and Private Sector 
Preparedness and Integration, so he is directly interested in 
your area of responsibility, if confirmed.
    Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Mr. Chairman. And as part of that 
work, we had a hearing in the Subcommittee on June 21 where we 
talked about the fact that 85 percent of our Nation's critical 
infrastructure is owned by the private sector. And your soon-
to-be colleague, Marko Bourne, stated the other day that FEMA 
does not have a private sector outreach office or any office 
that provides a direct line of communication between FEMA and 
the private sector.
    So the first question for you is: Do you plan to create 
some sort of official line of communication, whether it be an 
office or a process through your office?
    Mr. Schrader. Well, Senator, let me first start by saying 
that I spent 9 years at General Motors early in my career and 
also 16 years in a private sector hospital. Having been in that 
hospital on September 11, 2001, trying to get ahold of the FBI 
and figure out what was going on was very difficult.
    That has changed dramatically, but a lot more needs to be 
done. We need to make it easier for the private sector to 
participate.
    In the process of being briefed, I have had an opportunity 
to be briefed by Martinez Fonz's office and him personally on 
the work they are doing. I think this is an example of where 
FEMA and DHS can collaborate. What we need to do is--and this 
is what we did in the State of Maryland also. The governor gave 
me nine people, and we ran the entire State enterprise with 
nine people. But the trick to it was we had key people in 14 
agencies and offices, as well as partnerships with the Federal 
local offices like the FBI. We did not have to own everything 
ourselves inside the office. It was the relationship building 
and the task of organizing that got it all done--and we got a 
lot of work done.
    I will also say we had a private sector outreach program in 
Maryland which was very effective, and we did it through the 
critical infrastructure program because, as you said, 85 
percent is owned--my philosophy, working on behalf of the 
governor, was that you cannot have a critical infrastructure 
program without working with the private sector.
    We had an exercise, for example, where we tested 
interdependencies and created interdependencies awareness. We 
had 200 people there. Over 100 of the folks represented in the 
room were from the private sector through the relationships we 
had built.
    So it can be done, but it is a cultural issue, and it 
really requires an orientation to the private sector that I 
would bring.
    Senator Pryor. You mentioned that we need to do those 
things. Is it your intention, assuming you are confirmed, to 
come up with a concrete plan to try to implement them? It 
sounds like you have private sector experience and State 
experience. Is it your goal to bring that experience to the 
Federal level?
    Mr. Schrader. Absolutely. There is no question, if I am 
confirmed, that would be my intention. I would also mention 
what I have found to be the barriers in government. Oftentimes 
the perception is that, well, when private sector people 
approach government, their only intention is, A, to sell 
something or, B, there is a concern about I do not want to 
violate the procurement laws. And what we had to do in 
Maryland--and I am sure there will be similar challenges in the 
Federal sector--is to get staff comfortable with the idea of 
partnering with the private sector because you are talking 
about different cultures, but it can work. The private sector 
has enormous resources to bring to bear, but it has to be 
preplanned. And those relationships have to be established up 
front.
    Senator Pryor. I think that is critical myself.
    When you look at what FEMA does, obviously terrorism is a 
focus, and it should be. But there are many more natural 
disasters than there are terrorist events, and the bread and 
butter of FEMA is to be prepared to respond to the natural 
disasters. From your standpoint, is there a difference in 
planning for a natural disaster versus planning for a terrorist 
event? Or does it require the same preparation?
    Mr. Schrader. I would say that the process of preparation 
is the same, but the people that you have to bring together are 
slightly different, and let me give you an example.
    We had a tanker explode on I-95, which backed traffic all 
the way down through Virginia toward Norfolk. So there is a lot 
of coordination that goes on in that I-95 corridor. That turned 
out to be not a terrorist incident, but on the front end, there 
is an investigation that has to go on very rapidly to determine 
if it is or it is not.
    We had built the relationships through our Joint Terrorism 
Task Force where we had the Coordination and Analysis Center 
working very closely with the State Emergency Operations 
Center, and I am not going to tell you it was perfect. There 
was always a little bit of friction. But we made it work. And 
what we found is that back-and-forth communication on a real-
time basis allowed us to very quickly determine it was not a 
terrorist incident, and then very quickly a unified command was 
set up.
    So the bottom line is it worked in that case. If it had 
been a chlorine tank that was exploded by a terrorist, the 
process would have been exactly the same. I would argue that 
what we need to do are more real-time incident analyses to 
improve our processes and more functional drills rather than so 
many--what I have found in my experience is there is far too 
much emphasis on doing full-scale exercises for the media and 
the cameras with very long documents that have lessons learned 
that sit on a shelf, instead of doing more critical analysis of 
what are the key issues.
    So I would argue that the process is very similar, but the 
people are going to vary in the process.
    Senator Pryor. You mentioned in your prepared statement 
that it is important to enhance multi-State partnerships. How 
do you plan on enhancing those? And how do those partnerships 
play a role in national preparedness?
    Mr. Schrader. Well, let me start by saying two things. One 
is I very much believe that there need to be in every region of 
the country multi-State alliances. There is one in the Pacific 
Northwest that is very mature that I have become aware of and 
talked to those folks. The Northeast has begun to evolve. The 
Southeast part of the country has some structure in place that 
is evolving. And, of course, in the Midatlantic, we had a very 
robust group that we put together.
    The reason that becomes so important is we have to have a 
mechanism for the States to collaborate State to State. They 
are never going to accept the Federal Government imposing their 
will as almost a superior. What we need is a partnership, and 
when the States can--what I found in the Midatlantic, when we 
as the States were able to collaborate together in our 
501(c)(3), we then went to Region III and were able to work as 
full partners.
    The second thing we need to do is we really need to grow 
the capability in the regions for program management and to put 
the right kind of people there that are leaning forward. They 
have to also be oriented to move not just from natural 
disasters but also to reach out and work with the Department of 
Justice and the FBI.
    One last thing I would mention is there are tremendous 
regional resources in the Federal Government if one is oriented 
toward collaboration. We found, for example, our U.S. Attorney 
was an invaluable resource in the State of Maryland, and we 
leaned on them, and they provided us tremendous support. The 
same thing with the FBI. The FBI gave us space to work out of. 
They provided computer systems. We just had to be willing to 
work together. And so we need to promote this collaboration, 
not only between agencies but between the States and local 
jurisdictions.
    Senator Pryor. Thank you.
    Chairman Lieberman. Thanks very much, Senator Pryor.
    Mr. Schrader, thanks for your testimony and your 
willingness to serve. I must say I am very impressed by your 
record that you bring with you to this position, your military 
service, your service in the nonprofit sector and in the public 
sector. It is really quite extraordinary. And I am impressed by 
the way you handle yourself. So I think the President has made 
an excellent decision here, and I know I do not have to say 
this, but I think your family has a lot to be proud of. They 
probably know that already.
    I would say that, without objection, the record is going to 
be kept open until 12 noon tomorrow for the submission of any 
written questions or statements for the record.
    The Committee's next markup is next Wednesday, August 1. It 
is my intention to bring your nomination before the Committee 
at that time. I hope we can get it out and, with a little luck 
and help, through the Senate before we recess for August so 
that you can be officially in place.
    Senator Collins, would you like to add anything?
    Senator Collins. Thank you, Mr. Chairman. I really think 
you summed it up well. I have a few more questions that I am 
going to submit for the record, but I think based on the 
careful review the Committee has done of this nominee that he 
is clearly very well qualified for this important position. And 
I share your pleasure that the Administration has nominated 
someone who really fits what we had in mind when we created 
this new position as part of the FEMA reform act last year.
    So I join you in supporting the nominee, and I appreciate 
your expeditious consideration.
    Chairman Lieberman. Thanks, Senator Collins. Thank you 
again.
    Mr. Schrader. Thank you, Mr. Chairman, Senator Collins.
    Chairman Lieberman. The hearing is adjourned.
    [Whereupon, at 10:54 a.m., the Committee was adjourned.]





















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
